TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Customer Account Data Engine Project
                  Management Practices Have Improved, but
                   Continued Attention Is Needed to Ensure
                               Future Success



                                      September 11, 2008

                              Reference Number: 2008-20-151




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 11, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Customer Account Data Engine Project
                             Management Practices Have Improved, but Continued Attention Is
                             Needed to Ensure Future Success (Audit # 200820008)

 This report presents the results of our review of the development and capabilities of the
 Customer Account Data Engine (CADE). The overall objectives of this review were to
 determine the status of management’s implementation of corrective actions to our previous
 CADE report1 and to assess efforts to improve CADE customer service capabilities. This review
 was part of our Fiscal Year 2008 audit plan for reviews of the Internal Revenue Service’s (IRS)
 Business Systems Modernization Program efforts.

 Impact on the Taxpayer
 The IRS has developed a strategy for a phased replacement of its computer systems to better
 support today’s tax laws, tax policies, and taxpayer needs. As the centerpiece of the IRS
 modernization program, the CADE is an essential project in this strategy. It is being developed
 in incremental releases and will eventually replace the existing Master File2 processing systems,
 which are the IRS’ official repositories of taxpayer information. However, long-term objectives
 and the ability to adjust for unplanned initiatives have challenged the IRS’ ability to meet the
 goal of having the CADE perform as the modernization program’s centerpiece. The modernized
 CADE database will allow the IRS to update taxpayer accounts, support account settlement and
 maintenance, and process refunds daily, which will contribute to improved service to taxpayers.



 1
   Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
 Capabilities (Reference Number 2007-20-080, dated July 13, 2007).
 2
   See Appendix X for a glossary of terms.
                  Customer Account Data Engine Project Management Practices
                       Have Improved, but Continued Attention Is Needed
                                  to Ensure Future Success



Synopsis
In July 2007, we reported3 a continuing pattern by the CADE project team of deferring
requirements to later releases and missing release deployment dates. This occurred, in part,
because the IRS and the PRIME contractor agreed to an unrealistic scope of work and did not
assign adequate PRIME contractor staffing to the project. We also reported that 1) the approach
taken to implement the CADE architectural design would not support long-term goals and
objectives and 2) alternative design approaches might be needed to meet the CADE computer
processing demands. The Chief Information Officer agreed with the recommendations in our
prior audit report and outlined corrective actions to address the findings.
IRS executives and managers have initiated efforts to integrate the CADE with other tax
processing systems. For example, in October 2007, the Account Management Services system
successfully processed the first transactions updating taxpayer accounts on the CADE using the
Enterprise Architecture Integration Broker. With the addition of this capability, the number of
accounts retained in the CADE will increase over time while the number of accounts returned to
the current processing environment will decrease.
Another effort involves retaining in the CADE those taxpayer accounts that require issuance of
selected notices to the taxpayers. To accomplish this, the CADE sends taxpayer notice data to
the Notice Services program to initiate the correspondence process with taxpayers. This business
process changed from a weekly to a daily process because the CADE has daily processing
capabilities.
Long-term issues continue to challenge the CADE project. The ability of the CADE to access
historical taxpayer account information currently residing on the Individual Master File must be
resolved to enable requirements for soon-to-be developed CADE releases. In addition, with the
expectation of significant increases in the CADE taxpayer population, processing capacity and
data storage require consideration to meet future operational needs.
The processing of payments related to the Economic Stimulus Act of 20084 put the CADE
Release 4 Project Schedule at risk. In January 2008, the IRS engaged the PRIME contractor to
conduct an impact analysis and develop a preliminary design assessment for the work needed for
the CADE to process economic stimulus payment checks. The project team included the work
related to this effort in the scope of Release 4 with a task order modification.
However, the IRS did not have funds appropriated for this additional work until the effort was
already underway. Adding programming for the economic stimulus payments into the
Release 4.1 project schedule stressed resources and affected delivery of several notices and the

3
  Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
Capabilities (Reference Number 2007-20-080, dated July 13, 2007).
4
  Pub. L. No. 110-185, 122 Stat. 613.
                                                                                                     2
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success


overall project schedules for Releases 4.1 and 4.2. CADE officials stated that the economic
stimulus effort eliminated all reserve time built into the Release 4 project schedule and increased
the overall project schedule by 5 weeks.
As the IRS continues to modernize its databases, the ability to provide immediate access to
integrated account data, enable real-time transaction processing, and ensure daily account
settlement is critical to improving customer service and business results.

Recommendations
The Chief Information Officer should 1) ensure that a Historical Data Conversion solution is in
place to enable the CADE to process transactions related to issues such as balance-due
conditions, 2) develop an updated estimate of the processing and storage requirements–including
the related costs–to support the long-term objectives and goals of CADE operations, and 3) use a
standardized process– including measurement and reporting to appropriate parties–to determine
the effect on the CADE project’s scope, cost, and delivery schedules when unplanned initiatives
are mandated for implementation.

Response
The Chief Information Officer agreed with our recommendations. Planned corrective actions
include developing a decision paper to assess how to proceed with the Historical Data
Conversion as it relates to the CADE’s continued development, updating CADE end-state
processing and storage design estimates, and reviewing current procedures for assessing the
effects and risks in response to unplanned initiatives affecting the CADE, and filling any gaps in
these procedures. Management’s complete response to the draft report is included as
Appendix XI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                  3
                       Customer Account Data Engine Project Management Practices
                            Have Improved, but Continued Attention Is Needed
                                       to Ensure Future Success




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Has Taken Actions to Address
          Previously Recognized Project Shortcomings ..............................................Page 3
          The Customer Account Data Engine Is Successfully Integrating
          With Other Processing Systems....................................................................Page 6
          Long-Term Issues Continue to Challenge the Customer Account
          Data Engine Project ......................................................................................Page 7
                    Recommendations 1 and 2: ..............................................Page 9

          Processing of Economic Stimulus Payments Put the Release 4
          Project Schedule at Risk ...............................................................................Page 9
                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Customer Account Data Engine Project Costs ....................Page 15
          Appendix V – Customer Account Data Engine Release Schedules .............Page 17
          Appendix VI – Preliminary Designs for Improving Daily Processing
          Routines ........................................................................................................Page 23
          Appendix VII – Taxpayer Notices Aligned With Release 3.2......................Page 25
          Appendix VIII – Enterprise Life Cycle Overview........................................Page 26
          Appendix IX – Corrective Actions to Prior Recommendations ...................Page 28
          Appendix X – Glossary of Terms .................................................................Page 41
         Customer Account Data Engine Project Management Practices
              Have Improved, but Continued Attention Is Needed
                         to Ensure Future Success



Appendix XI – Management’s Response to the Draft Report ......................Page 46
       Customer Account Data Engine Project Management Practices
            Have Improved, but Continued Attention Is Needed
                       to Ensure Future Success




                      Abbreviations

BSMO            Business Systems Modernization Office
CADE            Customer Account Data Engine
CP              Computer Paragraph
EIC             Earned Income Credit
EIN             Employee Identification Number
IRS             Internal Revenue Service
                  Customer Account Data Engine Project Management Practices
                       Have Improved, but Continued Attention Is Needed
                                  to Ensure Future Success




                                          Background

The Customer Account Data Engine (CADE) is the centerpiece of the Internal Revenue Service
(IRS) modernization program. The CADE project is building a modernized database that will
replace the existing Master File1 processing systems, which are the IRS’ official repositories of
taxpayer information. To accomplish this, the IRS is developing applications that will update
taxpayer accounts, support account settlement and maintenance, and process refunds daily.
The IRS initiated the CADE project in September 1999 and has delivered the following releases
of the project:
    •   Release 1.1 deployed in August 2004 and Release 1.2 deployed in January 2005 provided
        processing for Income Tax Returns for Single and Joint Filers With No Dependents
        (Form 1040EZ).
    •   Release 1.3.1 deployed in September 2005 and Release 1.3.2 deployed in January 2006
        provided processing for U.S. Individual Income Tax Returns (Forms 1040 and 1040A)
        with no schedules.
    •   Release 2.1 deployed in September 2006 added several new schedules to the CADE,
        including Form 1040 Itemized Deductions (Schedule A), Form 1040 Interest and
        Ordinary Dividends (Schedule B), and Form 1040 Credit for the Elderly or the Disabled
        (Schedule R). Release 2.2, which completed deployment in May 2007, added additional
        schedules and filing statuses.
    •   Release 3.1 deployed in August 2007 (coordinated with the Account Management
        Services project) added the address change customer service capability, and Release 3.2
        deployed in January 2008 added new tax law changes, several new schedules, and the
        capability for direct deposit of a refund to more than one account.
In July 2007, we reported2 a continuing pattern by the CADE project team of deferring
requirements to later releases and missing release deployment dates. This occurred, in part,
because the IRS and the PRIME contractor agreed to an unrealistic scope of work and did not
assign adequate PRIME contractor staffing to the project. We also reported that 1) the approach
taken to implement the CADE architectural design would not support long-term goals and
objectives, and 2) alternative design approaches might be needed to meet the CADE computer
processing demands.


1
 See Appendix X for a glossary of terms.
2
 Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
Capabilities (Reference Number 2007-20-080, dated July 13, 2007).
                                                                                                    Page 1
                 Customer Account Data Engine Project Management Practices
                      Have Improved, but Continued Attention Is Needed
                                 to Ensure Future Success



The IRS Information Technology Modernization Vision and Strategy effort revalidated the need
for modernized tax administration capabilities. As the IRS continues to modernize its databases,
the abilities to provide immediate access to integrated account data, enable real-time transaction
processing, and ensure daily account settlement are critical to improving customer service and
business results. Realization of these capabilities requires implementation of tools that allow for
the retention of taxpayer accounts in the modernized CADE database through online access,
monitoring, and adjustment.
The Corporate Notices initiative will enable the CADE to support and manage taxpayer accounts
that require generation of notices to the taxpayers. The CADE sends taxpayer notice data to the
Notice Services program, which then generates composed notices, forwards a sample of selected
notices to quality review, and submits composed notices to the Correspondence Production
Services function for printing and mailing. This business process changed from a weekly to a
daily routine. Future releases of the Corporate Notices initiative will address the migration of
approximately 125 notices to the modernized processing environment.
This review was performed at the Modernization and Information Technology Services
organization in New Carrollton, Maryland, during the period February through May 2008. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
This review was part of our Fiscal Year 2008 audit plan for reviews of the Modernization and
Information Technology Services organization and contributes to the Treasury Inspector General
for Tax Administration’s efforts to address the Fiscal Year 2008 Major Management Challenge
to assess the progress of the “Modernization of the IRS Computerized Systems.” Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 2
                     Customer Account Data Engine Project Management Practices
                          Have Improved, but Continued Attention Is Needed
                                     to Ensure Future Success




                                       Results of Review

The Internal Revenue Service Has Taken Actions to Address
Previously Recognized Project Shortcomings
In July 2007, we reported that the IRS needed to negotiate a reasonable scope of work for future
CADE releases and ensure that the amount of staffing assigned to a specific release was adequate
to accomplish the scope of projected work. The report also stated that the IRS had not completed
1) addressing the need to include a database that stores historical account data, 2) essential
processing requirements deferred since Release 1 (first planned for implementation in
January 2002), and 3) a process to improve the efficiency of the daily processing cycle.
The Chief Information Officer agreed with the recommendations from our prior audit and
outlined corrective actions to address the findings.3 As of May 2008, the IRS had adequately
addressed all but one of the corrective actions. The open corrective action focuses on the
exploration of alternative design approaches for the CADE to reduce future processing costs.
This correction action is planned for completion in July 2008.

The project team has made progress to ensure that CADE releases contain a
reasonable scope of work and sufficient staffing
The CADE requirements management process is transitioning from the PRIME contractor to the
CADE Project Office and the Wage and Investment Division business owners. To ensure a
reasonable scope of work, the CADE project implemented use of a formal Business Systems
Requirements Report that incorporates IRS processes in the Business Rules and Requirements
Management Division, which will conduct detailed requirements identification and development.
Using these processes helps to define the scope of work, clarify business needs, and document
clearly defined requirements within established release boundaries.
The PRIME contractor documented Release 3 requirements in a Business Systems Requirements
Report and is responsible for the content and management of those requirements. While the IRS
played a lead role in development of the Release 4 Business Systems Requirements Report, the
PRIME contractor is responsible for the content and management of the requirements. With
Release 5, the Applications Development organization and the Business Rules and Requirements
Management Division worked with the Wage and Investment Division business owners to
develop the requirements contained in the Business Systems Requirements Report.



3
    See Appendix IX for IRS corrective actions to our prior recommendations.
                                                                                         Page 3
                   Customer Account Data Engine Project Management Practices
                        Have Improved, but Continued Attention Is Needed
                                   to Ensure Future Success



This change in requirements ownership is an effort to ensure that a manageable scope of work is
undertaken in the Detailed Design and System Development Phases of the Enterprise Life
Cycle.4 The CADE project team is aggressively tracking staffing levels weekly by analyzing
resource use reports provided by the PRIME contractor. The team also conducts staffing review
sessions to reduce any potential resource contention.
The IRS now requires the PRIME contractor to provide a list of the employees who support each
CADE release. The CADE project managers review and analyze the resources listed to ensure
that adequate support is provided by the PRIME contractor. The project managers and the
PRIME contractor have used these lists to develop and progressively update measures to capture
weekly staffing levels to better forecast current and future needs. These measures provide
high-level indicators of potential problems (i.e., yellow, red)5 that
also provide information about a specific release and area within
that release that are of concern. When the scope of work is             Current measures provide
properly defined, the project managers and business executives         CADE   project managers and
                                                                         business executives with
can effectively estimate the resources needed to deliver the           data sufficient to proactively
requirements agreed to during the contract negotiation process.           identify staffing issues.
Appendix IV presents an analysis of the Project release costs
through Fiscal Year 2008, which total about $270.9 million.

Appropriate actions were taken to deliver essential processing requirements
The project established the CADE Independent Requirements Project to implement six essential
processing requirements deferred from the January 2002 Release 1 plans. These requirements
were deferred because they were not needed to meet the release delivery goals. For example, the
Release 1 requirement to process prior year tax returns for accounts currently residing on the
CADE database is scheduled for delivery with Release 4.1.
One of the six essential processing requirements was delivered with Release 2.2, and three
requirements were delivered with Release 3.2. The remaining two requirements were moved to
Release 3.2, and again deferred to Release 4.1 because adequate staffing was not available for
their development due to a change in the contract structure.
The contract for the CADE Independent Requirements Project was originally structured using a
cost-plus task order. In April 2007, as part of the Release 3 renegotiation process, the CADE
Independent Requirements Project was changed to a fixed-price agreement. In September 2007,
Release 3.2 fell behind schedule and was in jeopardy of not being completed in time for the
upcoming filing season, and the PRIME contractor could not guarantee on-time delivery for the


4
 Appendix VIII presents an overview of the Enterprise Life Cycle.
5
 A “yellow” designation signifies that the issues are documented in the Item Tracking Reporting and Control
system and the project is proceeding. A “red” designation signifies that the issues are documented in the Item
Tracking Reporting and Control system and the project is in jeopardy.
                                                                                                            Page 4
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



CADE Independent Requirements Project. During subsequent negotiations, the IRS agreed to
move two requirements to Release 4.1 to maintain the integrity of the fixed-price agreement. At
that point, staffing resources were transferred from the CADE Independent Requirements Project
to work on Release 3.2.
In response to our prior audit, the CADE project team is implementing new requirements
management and staffing processes that were not in place in September 2007 to overcome the
staffing imbalances experienced. The new processes will help to ensure that a similar situation
will be less likely to occur in the future.

Preliminary designs have been developed to enable more efficient daily
processing of tax return account information
The basic unit of work performed by the CADE is the daily processing cycle, and each of these
cycles must be successfully completed before any significant processing can be started for the
next daily cycle. As more complex functions and processing needs are added to each release, the
CADE’s ability to complete each daily processing cycle is affected.
The IRS and the PRIME contractor have developed several                  Several preliminary
preliminary designs to improve daily processing routines. For             designs have been
example, one design will allow the CADE to execute bulk data                 developed to
transfers at any time concurrent with real-time, on-demand                  improve daily
transactions. Another design will allow recovery of specific             processing routines.
transactions without having to rerun an entire day’s processing.
Each preliminary design addresses previously identified problems that the IRS repeatedly
postponed addressing. The CADE project team’s driving concern was to make the current
release operational and to process as many tax returns as possible. However, as CADE volume
increased, resolving these issues has become an important if not immediate concern.
Appendix VI presents a description of the preliminary designs intended to provide the CADE
with the tools necessary to successfully process the taxpayer account volume contained in the
Individual Master File.

Current release capabilities were delivered in a timely manner
The IRS and the PRIME contractor began using a biannual release approach in September 2005.
One release in June each year will add complex capabilities, and another release in January each
year will include filing season updates. Appendix V presents the prior and current biannual
CADE release schedules. The current release schedule was updated in November 2006.
The IRS delivered CADE Release 3.1 in August 2007 and Release 3.2 in January 2008. In
addition to new tax law changes, several new schedules were added to the CADE, including
Earned Income Credit (Schedule EIC), Child and Dependent Care Expenses (Form 2441), Child
and Dependent Care Expenses for Form 1040A Filers (Schedule 2), and Direct Deposit of

                                                                                          Page 5
                      Customer Account Data Engine Project Management Practices
                           Have Improved, but Continued Attention Is Needed
                                      to Ensure Future Success



Refund to More Than One Account (Form 8888). The CADE can now process address changes
using the Enterprise Application Integration Broker and, for the first time, is processing three
taxpayer notices.
As of May 30, 2008, the CADE had processed more than 30 million tax returns and generated
almost $44 billion in refunds. This is a significant increase over the 11.2 million tax returns
processed in Calendar Year 2007 that generated approximately $11.6 billion in refunds. In
addition, the CADE processed more than 17.7 million payments related to the Economic
Stimulus Act of 20086 that generated refunds totaling more than $14 billion during this same
period in Calendar Year 2008.

The Customer Account Data Engine Is Successfully Integrating With
Other Processing Systems
IRS executives and managers have taken the lead in directing future efforts for integrating the
CADE with other tax processing systems. For example, in October 2007, the Account
Management Services system successfully processed the
first transactions updating taxpayer accounts on the CADE
through the Desktop Integration application. This was            The IRS has initiated efforts to
accomplished using the Enterprise Application Integration        integrate the CADE with other
                                                                processing systems to expedite
Broker. With the addition of this capability, the number of      taxpayer account updates and
accounts retained in the CADE will increase over time,            information notice issuance.
while the number of accounts returned to the current
processing environment will decrease.
Another effort involves retaining in the CADE those taxpayer accounts that require issuance of
selected notices to the taxpayers. The CADE sends taxpayer notice data to the Notice Services
program, which then generates composed notices, forwards a sample of selected notices to
quality review, and submits composed notices to the Correspondence Production Services
function for printing and mailing. This business process changed from a weekly to a daily
process.
In February 2007, the IRS aligned 13 notices with CADE Release 3.2 and the Notice Services
program (see Appendix VII for a list of the 13 notices). The Wage and Investment Division
business owners subsequently limited Release 3.2 to eight notices that did not require processing
through the Notice Review Processing System. The IRS planned to deliver the remaining five
notices with Release 4.2.
In February 2008, Release 3.2 began processing two mathematical error notices and one Earned
Income Credit (EIC) information notice. As of May 27, 2008, the CADE had processed more


6
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                           Page 6
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



than 56,000 mathematical error notices and 122,000 information notices. For 2008, the business
owners estimate that the CADE will process more than 93,000 mathematical error notices and
almost 168,000 information notices.

The IRS rescheduled delivery of two notices
Two refund notices originally planned for delivery with Release 3.2 were inadvertently omitted
from the task order. Upon discovery of this oversight, the IRS prepared work requests to
develop and implement the notice processing. However, once the work requests were approved,
CADE and business executives determined that development and testing of the processing for
these notices was not cost efficient at that time.
The decision to not include these two refund notices with Release 3.2 was reasonable given the
circumstances. These notices have been rescheduled for Release 4.1, which is planned for
delivery in July 2008.

Precautions taken during testing of notices were reasonable
In February 2008, CADE and business executives decided to prevent issuance of two EIC
mathematical error notices and one EIC information notice. The project team needed additional
time to test a sufficient number of taxpayer accounts before the notices were put into production.
Issuing these notices during the middle of the filing season without the assurance that notices
were generated only when appropriate could have jeopardized the entire Release 3.2 deployment,
potentially returning thousands of accounts from the CADE database to the Individual Master
File. The IRS has not rescheduled issuance of these three notices.

Long-Term Issues Continue to Challenge the Customer Account Data
Engine Project
The ability of the CADE to access historical taxpayer account information currently residing on
the Individual Master File must be resolved to enable requirements for soon-to-be developed
CADE releases. Further, with the expectation of significant increases in the CADE taxpayer
population, processing capacity and data storage require consideration to meet future operational
needs.

The Historical Data Conversion Project has been delayed, adding risk to the
deployment of future CADE releases
The IRS currently stores all relevant historical taxpayer data such as prior year tax assessments
and outstanding tax liabilities on the Individual Master File. The CADE project team planned to
build a database in 2002 to store historical account data in a modernized format as part of
Release 1. However, this requirement was deferred because the task was complex and its
necessity was not immediate to releases that did not require reference to these data. Currently,

                                                                                           Page 7
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



the CADE does not store historical taxpayer account data in a modernized format. It stores only
the taxpayer account data used in processing the current year returns.
As corrective actions to our prior report, the IRS planned to align the Historical Data Conversion
Project with CADE Release 3. However, the Project development has been rescheduled to allow
the IRS to coordinate its delivery strategy with the
Individual Master File to Database 2 initiative and the          The IRS has a requirement to
Enterprise Data Strategy.                                       convert historical data from the
                                                                Individual Master File data to
This setback occurred in part because the foundation for   storage on the CADE because the
designing a CADE database capable of supporting all         data on the Individual Master File
current and future business requirements (i.e., the        are not compatible with the CADE.
“end state” Logical Data Model) is incomplete. This
issue was not adequately addressed when identified in
August 2006 by the CADE Data Study. As a result, the contracted work for Release 3 agreed to
by the IRS and the PRIME contractor supported only Release 3.2 data elements and did not
include more than 10,000 data elements needed to successfully deliver the Historical Data
Conversion Project.
The IRS has tentative plans to implement a Historical Data Integration process with CADE
Release 5.1 in July 2009. The process will allow the CADE to efficiently use the taxpayer and
tax return data once the data are converted from the Individual Master File format into the CADE
modernized data structure. However, until a long-term Historical Data Conversion solution is
implemented, the CADE will be unable to efficiently retain the increasing number of
CADE-eligible taxpayer accounts in its database.

The need to explore alternative design solutions still exists
The IRS still needs to decide whether to reduce CADE capabilities because of capacity
constraints or to continue development with the expectation of using new technology or
alternative resources to satisfy its computer processing demands. The CADE processing
demands are quickly reaching the capacity of the current system, both in the storage and retrieval
of data and the processing speed for daily transactions. If the IRS does not identify new
technology to more efficiently perform computer processing, CADE costs might be prohibitive.
The IRS engineering staff have determined that use of external sources such as supercomputing
centers for additional processing capacity is impractical for several reasons. Barriers to using
external sources for data management include the size of the data transfers, compatibility type
database issues, account balancing, and security. The engineering staff performed the last formal
study of CADE processing capacity in 2004 and have not determined the long-term CADE
processing capacity needs.
The absence of a comprehensive direction in designing and developing efficient computer
processing will affect the CADE project’s ability to deliver intended capabilities. Unless

                                                                                             Page 8
                      Customer Account Data Engine Project Management Practices
                           Have Improved, but Continued Attention Is Needed
                                      to Ensure Future Success



sufficient time and effort are provided to deliver the capabilities needed to support the long-term
objectives and goal, the CADE will be unable to process tax returns for all individual and
business taxpayers as planned. In addition, the longer these decisions are delayed, the greater the
risk of costly rework.

Recommendations
The Chief Information Officer should:
Recommendation 1: Ensure that a Historical Data Conversion solution is in place to enable
the CADE to process transactions related to issues such as balance-due conditions.
           Management’s Response: The Chief Information Officer agreed with this
           recommendation and will have the CADE Project Office partner with key stakeholders to
           develop a decision paper to assess how to proceed with the Historical Data Conversion as
           it relates to the CADE’s continued development. The CADE Project Office will develop
           a plan and schedule for the Historical Data Conversion based on the decision paper.
Recommendation 2: Develop an updated estimate of the processing and storage
requirements, including the related costs, to support the long-term objectives and goals of CADE
operations.
           Management’s Response: The Chief Information Officer agreed with this
           recommendation and will have the Enterprise Services organization update the CADE
           end-state processing and storage design estimates. Estimates will include direct costs
           associated with processing and storage requirements. Indirect costs such as software
           license fees, professional services, labor charges, and maintenance fees will not be
           included in cost estimates.

Processing of Economic Stimulus Payments Put the Release 4 Project
Schedule at Risk
In February 2008, the 2008 Legislative Economic Stimulus initiative7 went into effect. This
initiative was designed to stimulate consumer spending by providing payments of up to $1,200 to
qualifying taxpayers. At the time, the CADE did not have the capability to process these
payments, so in order to issue the payments to taxpayers whose accounts resided on the CADE,
the IRS would have had to transfer all of the accounts back to the Individual Master File. In
January 2008, the IRS proactively engaged the PRIME contractor to conduct an impact analysis
and develop a preliminary design assessment for the work needed for the CADE to process the
economic stimulus payments. The project team included the work related to this effort in the


7
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                              Page 9
                 Customer Account Data Engine Project Management Practices
                      Have Improved, but Continued Attention Is Needed
                                 to Ensure Future Success



scope of Release 4 with a task order modification. Because the IRS took these steps, more than
17 million taxpayers received the benefit of expedited payments by remaining in the CADE
database. In addition, the IRS did not have to move all of the accounts to the Master File to
process the payments and then move the accounts back to the CADE.
However, the IRS did not have funds appropriated for this additional work until the effort was
already underway. Adding programming for the economic stimulus payments into the
Release 4.1 project schedule stressed resources and affected delivery of several notices and the
overall project schedules for Releases 4.1 and 4.2. CADE officials stated that the economic
stimulus effort eliminated all reserve time built into the Release 4 project schedule and increased
the overall project schedule by 5 weeks.

Recommendation
Recommendation 3: The Chief Information Officer should use a standardized process to
determine the effect on the CADE project’s scope, cost, and delivery schedules when unplanned
initiatives are mandated for implementation. These effects should be measured to the extent
possible and reported to the IRS Commissioner and other stakeholders as a means for
communicating the consequences to previously planned CADE capabilities.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation and will review current procedures for assessing the effects and risks in
       response to unplanned initiatives affecting the CADE as described in the CADE and the
       Modernization and Information Technology Services organization Change Control Board
       processes and the Executive Steering Committee governance procedures. If it is
       determined that there are gaps in these procedures, the Modernization and Information
       Technology Services organization will update the procedures. As events such as the
       2008 Legislative Economic Stimulus initiative occur, the Modernization and Information
       Technology Services organization will ensure that organizational decisions are made with
       knowledge of the potential effect on the project and ensure that these are appropriately
       documented. However, there is no commitment that all such decisions will be elevated to
       the IRS Commissioner.




                                                                                           Page 10
                  Customer Account Data Engine Project Management Practices
                       Have Improved, but Continued Attention Is Needed
                                  to Ensure Future Success



                                                                                            Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine the status of management’s
implementation of corrective actions to our previous CADE report1 and to assess efforts to
improve CADE customer service capabilities. This review was part of our Fiscal Year 2008
audit plan for reviews of the IRS’ Business Systems Modernization efforts and contributes to our
efforts to address the Fiscal Year 2008 Major Management Challenge to assess modernization of
the IRS’ computerized systems.
To accomplish our objective, we identified the internal control systems used as guidance for the
CADE’s development. These systems include the Enterprise Life Cycle2 and the Internal
Revenue Manual. We assessed the adequacy of CADE development activities in relation to the
guidance provided by these internal control systems. We also assessed the adequacy of CADE
development and program plans by reviewing Business Systems Modernization Program and
project documentation and data provided by the IRS and by interviewing personnel in the
Applications Development and Enterprise Services organizations. Specifically, we:
I.      Evaluated the effectiveness of the corrective actions related to the design, development,
        and delivery of new CADE releases.3
        A. Reviewed CADE Project Office activities to determine whether 1) future releases will
           have a reasonably achievable scope of work, and 2) each release will be sufficiently
           staffed to deliver planned requirements on schedule.
        B. Reviewed CADE Project Office activities related to plans and actions to develop
           previously deferred essential CADE requirements.
        C. Assessed CADE Project Office actions taken to deliver the Historical Data
           Conversion Project.
        D. Reviewed CADE Project Office activities related to improving daily processing
           routines and meeting long-term CADE computer processing and storage demands.
II.     Determined the status of IRS efforts to enable the CADE to improve customer service by
        evaluating the effectiveness of current activities taken to ensure that it will be able to



1
  Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
Capabilities (Reference Number 2007-20-080, dated July 13, 2007).
2
  Appendix VIII presents an overview of the Enterprise Life Cycle.
3
  See Appendix X for a glossary of terms.
                                                                                                     Page 11
        Customer Account Data Engine Project Management Practices
             Have Improved, but Continued Attention Is Needed
                        to Ensure Future Success



manage taxpayer accounts requiring issuance of selected notices, such as mathematical
error notices and information notices.




                                                                                Page 12
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Bruce Polidori, Senior Auditor
Suzanne Noland, Auditor
Linda Screws, Auditor




                                                                                      Page 13
               Customer Account Data Engine Project Management Practices
                    Have Improved, but Continued Attention Is Needed
                               to Ensure Future Success



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Test, Assurance, and Documentation OS:CIO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 14
                      Customer Account Data Engine Project Management Practices
                           Have Improved, but Continued Attention Is Needed
                                      to Ensure Future Success



                                                                                            Appendix IV

            Customer Account Data Engine Project Costs

                      Table 1: Project Task Order1 Costs Through Release 3
     Task Order Number                         Period of Performance                        Cost
 0019                           1999 – 2000 (specific dates not available)                       $2,166,234
 0037                           April 24, 2000 – August 31, 2000                                 $3,011,000
 0054                           September 1, 2000 – April 30, 2001                              $13,971,165
 0069                           June 1, 2001 – August 31, 2001                                   $5,700,000
 0071                           May 1, 2001 – June 30, 2001                                      $1,534,012
 0073                           September 1, 2001 – August 31, 2004                             $60,458,154
 0123                           October 1, 2004 – June 8, 2006                                  $78,862,590
 0132                           May 2, 2006 – April 15, 2008                                    $39,143,554
 Total                                                                                         $204,846,709
Source: CADE contract task orders from the IRS Procurement office.

              Table 2: Estimated Project Costs and Schedule Through Release 3
               Release Project Phases                     Completed/Scheduled           Cost/Estimate
 Milestone 1                                          December 31, 1999                          $5,116,000
 Milestones 2 and 3                                   June 30, 2001                             $19,267,000
 Milestone 4                                          July 30, 2004                             $58,838,000
 2003/2004 Filing Seasons (Release 1.1)               August 5, 2004                            $24,550,000
 2005 Filing Season (Release 1.2)                     December 31, 2004                         $23,403,000
 Milestone 5                                          June 30, 2005                             $17,450,000
 2006 Filing Season (Release 1.3)                     December 31, 2005                         $28,300,000
 2007 Filing Season (Release 2)                       May 30, 2007                              $56,959,000
 2007 Filing Season (Release 3)                       January 14, 2008                          $37,000,000
 Total                                                                                         $270,883,000
Source: Business Systems Modernization Expenditure Plans for Fiscal Year 2004 through Fiscal Year 2008.




 1
     See Appendix X for a glossary of terms.
                                                                                                      Page 15
                    Customer Account Data Engine Project Management Practices
                         Have Improved, but Continued Attention Is Needed
                                    to Ensure Future Success



                   Table 3: Project Cost and Schedule Variance Summary
     Release          Milestone              Cost         Cost Variance          Schedule      Schedule Variance
                                            Variance       Percentage            Variance         (percentage)
                                                                               (in months)
 1              Operations and              $7,510,000               43%                 0                   0%
                Maintenance2
 1.2            2005 Filing Season3            $10,000                0%                 0                   0%
 1.3.1          2006 Filing Season                $668                3%                 2                  20%
 1.3.2          2006 Filing Season4                $66                0%                 0                   0%
 2.1            Mid-year Release                $4,190               15%                 0                   0%
 2.2            2007 Filing Season              $3,777               15%                 5                  65%
 3.1            Mid-year Release                    $0                0%                 0                   0%
 3.2            2008 Filing Season                  $0                0%                 0                   0%
 Program        Calendar Year 2005          $1,935,000               24%              Not                    Not
 Management     Level of Effort                                                 Applicable            Applicable
                Calendar Year 2006                   $0                0%             Not                    Not
                Level of Effort                                                 Applicable            Applicable
Source: Business Systems Modernization Expenditure Plans for Fiscal Year 2004 through Fiscal Year 2008, and the
Business Systems Modernization Monthly Performance Measures Reports.




 2
   CADE Release 1 (Operations and Maintenance) was initially referred to as “CADE Release 1, Milestone 5” in the
 Business Systems Modernization Expenditure Plan.
 3
   CADE Release 1.2 was initially referred to as “CADE Filing Season 2005” in the Business Systems Modernization
 Expenditure Plan. The IRS did not provide cost and schedule data for this Release in subsequent Expenditure Plans.
 4
   CADE Releases 1.3.1 and 1.3.2 were initially combined and referred to as “CADE Filing Season 2006” in the
 Business Systems Modernization Expenditure Plan.
                                                                                                         Page 16
                                                Customer Account Data Engine Project Management Practices
                                                     Have Improved, but Continued Attention Is Needed
                                                                to Ensure Future Success



                                                                                                                                  Appendix V

                   Customer Account Data Engine Release Schedules

Table 1 presents the historical development of the CADE and the original CADE release1
schedule. The names of the tax forms planned for CADE processing are presented below
Table 1. All tax forms and schedules listed in Tables 1 and 2 are available at the public IRS
web site (IRS.gov).
                                                         Table 1: Original CADE Release Schedule
                                     RELEASE         RELEASE        RELEASE         RELEASE        RELEASE          RELEASE       RELEASE          RELEASE
                                     1.1/1.2         1.3.1          1.3.2           2.1            2.2              3             4                5
                                     Form            Release        Release 1.3.1   Form           Release 2.1      All           All Form 1040    All remaining
                                     1040EZ;         1.1/1.2 plus   plus            1040EZ;        plus             Form 1040     family and       individual tax
                                     Single filing   address        Forms 1040      Form 1040      Form 1040        family and    supporting       returns
                                     status;         change         and 1040A       Schedules A,   Schedules C,     supporting    forms with an
                                     refund or                      with no         B, and R;      D, E, F, and H   forms         EIN;
                                     even-balance                   schedules;      Form 1040A     without an       without an    Forms 941,
Tax Return Types




                                     returns                        Forms 4868      Schedules 1    Employer         EIN;          940, and 720;
                                                                    and 2688;       and 3          Identification   Form 1040A    payroll,
                                                                    prior year                     Number (EIN)     Schedule 2;   unemployment,
                                                                    returns                        and their        refund,       and excise
                                                                    (2003+);                       supporting       deceased      returns for
                                                                    limited                        schedules        refund, or    Form 1040
                                                                    name-change                                     fully paid    taxpayers;
                                                                    returns                                         returns       refund, fully
                                                                                                                                  paid,
                                                                                                                                  balance-due,
                                                                                                                                  and
                                                                                                                                  even-balance
                                                                                                                                  returns
                                     Single          Single         Single          Single;        Single;          All           All              All
                                                                                    Married;       Married; Head    (including
                                                                                    Head of        of Household,    Head of
Status
Filing




                                                                                    Household,     limited          Household)
                                                                                    limited        dependents
                                                                                    dependents
                                     No account      No account     No account      No account     Married once;    No open       Power of         All accounts
                                     issues (open    issues (open   issues (open    issues (open   no open          account       Attorney;        not included
                   Characteristics




                                     or closed)      or closed)     or closed)      or closed)     account issues   issues; EIC   Centralized      in previous
                                                                                                                                  Authorization    releases
Account




                                                                                                                                  File; no open
                                                                                                                                  account issues




1
      See Appendix X for a glossary of terms.
                                                                                                                                              Page 17
                     Customer Account Data Engine Project Management Practices
                          Have Improved, but Continued Attention Is Needed
                                     to Ensure Future Success


              RELEASE        RELEASE     RELEASE        RELEASE       RELEASE        RELEASE        RELEASE          RELEASE
              1.1/1.2        1.3.1       1.3.2          2.1           2.2            3              4                5

 Number of
 Returns
 Original
              3 million                                               35 million     76 million     110 million      122 million
 estimate
 Revised
 Estimate -   2 million      2 million   To Be          To Be         33 million     50 million     80 million       140 million
 February                                Determined     Determined
 2005
 Estimated
 Delivery:
 As of        January 2002                              August 2002                  July 2003      July 2004        July 2005
 April 2000
 As of
 January      August 2004                January 2006   To Be         To Be          To Be          To Be            To Be
 2004                                                   Determined    Determined     Determined     Determined       Determined
 As of                                                                               To Be          To Be            To Be
 December     August 2004    July 2005   January 2006   July 2006     January 2007   Determined     Determined       Determined
 2004
 As of
 February     August         July 2005   January 2006   July 2006     January 2007   Releases       Releases         July 2009
              2004/                                                                  3.1/3.2        4.1/4.2
 2005
              January 2005                                                           July 2007/     July 2008/
                                                                                     January 2008   January 2009
Source: CADE Individual Master File Release Content Master Plan Updates, dated June 5, 2003, and
February 11, 2005.
 Form 720 – Quarterly Federal Excise Tax Return
 Form 940 – Employer’s Annual Federal Unemployment (FUTA) Tax Return
 Form 941 – Employer’s QUARTERLY Federal Tax Return
 Form 1040 – U.S. Individual Income Tax Return
 Form 1040A – U.S. Individual Income Tax Return
 Form 1040EZ – Income Tax Return for Single and Joint Filers With No Dependents
 Form 2688 – Application for Additional Extension of Time To File U.S. Individual Income Tax Return
 Form 4868 – Application for Automatic Extension of Time To File U.S. Individual Income Tax Return
 Schedule A (Form 1040) – Itemized Deductions
 Schedule B (Form 1040) – Interest and Ordinary Dividends
 Schedule C (Form 1040) – Profit or Loss From Business
 Schedule D (Form 1040) – Capital Gains and Losses
 Schedule E (Form 1040) – Supplemental Income and Loss
 Schedule F (Form 1040) – Profit or Loss From Farming
 Schedule H (Form 1040) – Household Employment Taxes
 Schedule R (Form 1040) – Credit for the Elderly or the Disabled
 Schedule 1 (Form 1040A) – Interest and Ordinary Dividends for Form 1040A Filers
 Schedule 2 (Form 1040A) – Child and Dependent Care Expenses for Form 1040A Filers
 Schedule 3 (Form 1040A) – Credit for the Elderly or the Disabled for Form 1040A Filers
 Table 2 presents the first biannual CADE release schedule. The names of additional tax forms
 planned for CADE processing are presented below Table 2.
                                                                                                                   Page 18
                             Customer Account Data Engine Project Management Practices
                                  Have Improved, but Continued Attention Is Needed
                                             to Ensure Future Success



                                  Table 2: First Biannual CADE Release Schedule
                   2004           2005           2006             2007             2008             2009             2010              2011/2012

January            RELEASE        RELEASE        RELEASE          RELEASE          RELEASE          RELEASE          RELEASE           RELEASE
and                1.1            1.2            1.3.2            2.2              3.2              4.2              5.2               6.2
June                              1.3.1          2.1              3.1              4.1              5.1              6.1               7.1/7.2

                   Form 1040EZ    1.2 & 1.3.1    1.3.2            2.2              3.2              4.2              5.2               6.2
                                  Form 1040EZ    Forms 1040       Form 1040A       Form 1040        Balance-due      Form 1040         Additional
                                                 and 1040A,       Schedules 1      decedent         returns;         Schedules C, E,   Form 1040
                                  1.3.1 only     no schedules     and 3;           returns;         mathematical     and F with an     schedules and
                                  Address                         Form 1040        Form 1040        error returns;   EIN and           forms
                                  changes                         Schedules A,     fully paid       Form 6251;       supporting
                                                                  B, D, and R      with             additional       schedules         7.2
                                                                  and              remittance;      Form 1040        including         Form
                                                                  supporting       Form 1040        schedules and    Schedule SE;      1040NR;
                                                                  forms;           with credit      forms            Forms 940 and     Form 1040
                                                                  Form 1040        elect;                            720 payroll,      Puerto Rico
                                                                  Schedules C,     Form 4868                         unemployment,     resident;
Tax Return Types




                                                                  F, and E         with                              and excise tax    Form 1040
                                                                  without an       remittance;                       returns for       Self-
                                                                  EIN and          Form 4868                         Form 1040         Employed;
                                                                  supporting       with no                           self-employed     Form 1040
                                                                  forms            remittance;                       filers;           Departing
                                                                  including        additional                        additional        Alien; foreign
                                                                  Schedule SE;     Form 1040                         Form 1040         address;
                                                                  limited name     schedules and                     schedules and     additional
                                                                  change on        forms; Form                       forms;            Form 1040
                                                                  return           1040-ES;                          delinquent        schedules and
                                                                                   Form 1040-V;                      returns           forms
                                                                                   Form 1040X;
                                                                                   Form 1040A
                                                                                   Schedule 2;
                                                                                   Form 1040
                                                                                   Schedule EIC
                                                                                   and
                                                                                   supporting
                                                                                   forms
                   Single         Single         2.1              3.1              4.1              5.1              6.1               7.1
                   (never         (never         Single,          Single,          Single,          Single,          Single,           Single,
Filing Status




                   married); no   married); no   Married (joint   Married (joint   Married (joint   Married (joint   Married (joint    Married (joint
                   dependents     dependents     and separate),   and separate),   and separate),   and separate),   and separate),    and separate),
                                                 Head of          Head of          Head of          Head of          Head of           Head of
                                                 Household        Household,       Household,       Household,       Household,        Household,
                                                                  Surviving        Surviving        Surviving        Surviving         Surviving
                                                                  Spouse           Spouse           Spouse           Spouse            Spouse




                                                                                                                               Page 19
                                        Customer Account Data Engine Project Management Practices
                                             Have Improved, but Continued Attention Is Needed
                                                        to Ensure Future Success


                           2004             2005           2006           2007             2008            2009          2010             2011/2012

 January                   RELEASE          RELEASE        RELEASE        RELEASE          RELEASE         RELEASE       RELEASE          RELEASE
 and                       1.1              1.2            1.3.2          2.2              3.2             4.2           5.2              6.2
 June                                       1.3.1          2.1            3.1              4.1             5.1           6.1              7.1/7.2

                           Refund or        Refund or      Refund or      2.2              3.2             No open       Power of         All accounts
                           even-balance     even-balance   even-balance   Married once;    No open         account       Attorney;        not included
                           returns; no      returns; no    returns; no    no open          account         issues; EIC   Centralized      in previous
 Account Characteristics




                           account issues   dependents;    dependents;    account issues   issues;                       Authorization    releases
                           (open or         no account     no account                      EIC                           File;
                           closed)          issues (open   issues (open   3.1                                            no open
                                            or closed)     or closed)     No open          4.1                           account issues
                                                                          account          Power of
                                                                          issues;          Attorney;
                                                                          EIC              Centralized
                                                                                           Authorization
                                                                                           File;
                                                                                           no open
                                                                                           account
                                                                                           issues; EIC
                           Not              Actual         Actual         2.2              3.2             4.2           5.2              6.2
 Number of Returns




                           applicable       1,423,517      7,372,572      33 million       50 million      70 million    90 million       110 million
    Estimated




                                                                                                                                          7.2
                                                                                                                                          135 million




Source: Customer Relationship Management Executive Steering Committee, approved October 18, 2005.
 Form 1040-ES – Estimated Tax for Individuals
 Form 1040NR – U.S. Nonresident Alien Income Tax Return
 Form 1040-V – Payment Voucher
 Form 1040X – Amended U.S. Individual Income Tax Return
 Form 6251 – Alternative Minimum Tax–Individuals
 Schedule EIC (Form 1040 or 1040A) – Earned Income Credit
 Schedule SE (Form 1040) – Self-Employment Tax




                                                                                                                                      Page 20
                              Customer Account Data Engine Project Management Practices
                                   Have Improved, but Continued Attention Is Needed
                                              to Ensure Future Success



Table 3 presents the revised biannual CADE release schedule as of November 16, 2006. The
names of additional tax forms planned for CADE processing are presented below Table 3.
                                Table 3: Second Biannual CADE Release Schedule
                   2007                 2008                 2009                 2010                  2011                  2012

January            RELEASE              RELEASE              RELEASE              RELEASE               RELEASE               RELEASE
and                2.2                  3.2                  4.2                  5.2                   6.2                   7.2
June               3.1                  4.1                  5.1                  6.1                   7.1

                   2.2                  3.2                  4.2                  5.2                   6.2                   7.2
                   Form 1040            Form 1040            Form 1040X;          None                  None                  None
                   Schedules C, F,      decedent returns;    Form 6251
                   and E without an     Form 1040 with                            6.1                   7.1
                   EIN and              credit elect;        5.1                  Additional            Form 1040NR;
                   supporting forms     Form 1040A           Delinquent           Form 1040             Form 1040 Puerto
                   including            Schedule 2;          returns;             schedules and         Rico resident;
                   Schedule SE;         Form 4868 with       Form 1040X           forms;                Form 1040-SS
Tax Return Types




                   Form 1040            remittance and       expanded             Form 1040             self-employed
                   Schedule D and its   without remittance                        Schedules C and F     Puerto Rico
                   supporting forms;                                              with an EIN and       resident;
                   Form 8880            4.1                                       supporting            Form 1040 foreign
                                        Balance-due                               schedules,            address; additional
                   3.1                  returns;                                  including             Form 1040
                   Form 1040 fully      mathematical error                        Schedule SE           schedules and
                   paid with            returns                                                         forms;
                   remittance;                                                                          Forms 940 and
                   Form 1040-ES,                                                                        720 payroll,
                   Form 1040-V,                                                                         unemployment,
                   Schedule EIC, and                                                                    and excise tax
                   their supporting                                                                     returns for
                   forms                                                                                Form 1040
                                                                                                        self-employed
                                                                                                        filers
                   Not included in      Not included in      Not included in      Not included in       Not included in
                   plan                 plan                 plan                 plan                  plan
Status
Filing




                   2. 2                 3.2                  4.2                  5.2                   6.2                   7.2
                   Clean dependents;    Deceased             None                 None                  None                  None
Characteristics




                   Married (joint and   taxpayers; name
  Account




                   separate), married   change (last name)   5.1                  6.1                   7.1
                   once                                      Power of             Taxpayers with a      All open issues
                                        4.1                  Attorney;            history of multiple
                   3.1                  None                 Centralized          marriages
                   Dependents                                Authorization File
                   expanded




                                                                                                                                     Page 21
                        Customer Account Data Engine Project Management Practices
                             Have Improved, but Continued Attention Is Needed
                                        to Ensure Future Success


              2007              2008              2009              2010              2011              2012

 January      RELEASE           RELEASE           RELEASE           RELEASE           RELEASE           RELEASE
 and          2.2               3.2               4.2               5.2               6.2               7.2
 June         3.1               4.1               5.1               6.1               7.1

              Not included in   Not included in   Not included in   Not included in   Not included in   Not included in
  Number of
  Estimated




              plan              plan              plan              plan              plan              plan
   Returns




Source: The IRS Applications Development organization.
 Form 1040-SS – U.S. Self-Employment Tax Return (Including the Additional Child Tax Credit for
 Bona Fide Residents of Puerto Rico)
 Form 8880 – Credit for Qualified Retirement Savings Contributions




                                                                                                               Page 22
                     Customer Account Data Engine Project Management Practices
                          Have Improved, but Continued Attention Is Needed
                                     to Ensure Future Success



                                                                                    Appendix VI

                       Preliminary Designs for Improving
                           Daily Processing Routines

Continuous Online Processing
Objectives: 1) Eliminate constraints imposed by the current application architecture to allow the
CADE to support 24-hour by 7-day batch-input and on-demand transactions, and 2) improve
CADE transaction throughput by supporting a 20-hour to 24-hour day enabling the CADE to
spread the peak processing over more hours, thereby dramatically reducing the processing
capacity requirements.
Tentative Delivery: Release 5.1
Transaction-Based Recovery
Objective: Provide the ability to recover CADE processing at the transactional level rather than
cycle1 level to maximize the system’s availability and enable continuous online (transactional)
processing.
Tentative Delivery: Release 5.1
CADE Initialization Approach
Objective: Provide an approach to bring taxpayers into the CADE from the Individual Master
File that is not affected by annual end-of-year and beginning-of-year time-constrained
processing. The approach needs to increase the frequency with which taxpayers can be moved
from the Individual Master File into the CADE, such that there is no need for a large
initialization effort during the ending/beginning of the year. The target state is for all taxpayers
(or at least the overwhelming majority) to permanently reside in the CADE, which would
eliminate the need for extensive initialization processing.
Tentative Delivery: Release 5.2




1
    See Appendix X for a glossary of terms.
                                                                                             Page 23
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



Return to the Current Processing Environment Enhancement
Objectives: Improve the CADE architecture by 1) enhancing the communication to the current
processing environment architecture by reducing process inefficiencies and system resource
consumption, and 2) providing a more scalable and maintainable return to current processing
environment approach that will handle increased volumes in the future and improve
performance.
Tentative Delivery: Release 5.2
Archiving and Restore From Archive
Objective: Reduce and remove unneeded data from the active CADE database for all active
taxpayers by transferring it to specific types of long-term storage.
Tentative Delivery: Release 7
Thread-safe Transaction and Customer Information Control System Transaction Server
Open Transaction Environment
Objective: Identify viable software approaches to increase CADE system performance by
making the computer code more efficient.
Tentative Delivery: Release 6
Incremental Database Improvements
Objective: Implement incremental database improvements to satisfy the business and technical
needs identified for each release.
Tentative Delivery: Releases 4.2 through 6.2




                                                                                      Page 24
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



                                                                              Appendix VII

        Taxpayer Notices Aligned With Release 3.2

In Production: Release 3.2
   Computer Paragraph (CP)-12: Math Error, overpayment of $1.00 or more.
   CP-13: Math Error, balance due less than $5.00, overpayment less then $1.00.
   CP-27: EIC potential for taxpayer without qualifying children.
Planned Delivery: Release 4.1
   CP-08: Informs recipient that he or she might qualify for the Additional Child Tax Credit.
   CP-53: Notifies taxpayer an electronic funds transfer was not honored.
Planned Delivery: Release 4.2
   CP-09: Notifies taxpayer of possible eligibility for the EIC.
   CP-10: Math Error with reduced credit elect.
   CP-24: Estimated tax discrepancy, overpayment of $1.00 or more.
   CP-25: Estimated tax discrepancy, balance due less than $5.00, overpayment less
   than $1.00.
   CP-45: Credit elect change.
Planned Delivery: To be determined
   CP-10A: EIC Math Error with reduced credit elect.
   CP-12A: EIC Math Error, overpayment of $1.00 or more.
   CP-13A: EIC Math Error, balance due less than $5.00, overpayment less than $1.00.




                                                                                        Page 25
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



                                                                                 Appendix VIII

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the phases and milestones within the Enterprise Life Cycle. A
phase is a broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone) at which IRS executives make
“go/no-go” decisions for continuation of a project. Project funding decisions are often associated
with milestones.




                                                                                          Page 26
                    Customer Account Data Engine Project Management Practices
                         Have Improved, but Continued Attention Is Needed
                                    to Ensure Future Success



                   Figure 1: Enterprise Life Cycle Phases and Milestones

              Phase                             General Nature of Work                     Milestone
 Vision and Strategy/               High-level direction setting. This is the only
 Enterprise Architecture            phase for enterprise planning projects.                    0
 Phase
 Project Initiation Phase           Startup of development projects.                           1
 Domain Architecture Phase          Specification of the operating concept,
                                                                                               2
                                    requirements, and structure of the solution.
 Preliminary Design Phase           Preliminary design of all solution components.             3
 Detailed Design Phase              Detailed design of solution components.                   4A
 System Development Phase           Coding, integration, testing, and certification of
                                                                                              4B
                                    solutions.
 System Deployment Phase            Expanding availability of the solution to all target
                                    users. This is usually the last phase for                  5
                                    development projects.
 Operations and Maintenance         Ongoing management of operational systems.              System
 Phase                                                                                     Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                               Page 27
                     Customer Account Data Engine Project Management Practices
                          Have Improved, but Continued Attention Is Needed
                                     to Ensure Future Success



                                                                                    Appendix IX

          Corrective Actions to Prior Recommendations

Table 1 presents the findings reported by the Treasury Inspector General for Tax Administration
and the IRS’ subsequent planned corrective actions and implementation status. The report titles
are presented below Table 1.
      Table 1: Status of Treasury Inspector General for Tax Administration Report
           Findings and IRS Corrective Actions Related to the CADE Project

Report               Finding and Recommendation            Corrective Action                    Status
Number
and Date

2003-20-018          1. The Pilot Plan Needs to Include    The IRS monitors Information       Closed
                     Adequate Defect Reporting             Technology Asset Management
November             Procedures.                           System use and requires the
2002                                                       PRIME contractor to develop
                     To ensure that the defect reporting   procedures to include defect
                     databases provide reliable            report resolution. Under the draft
                     information for the pilot defect      procedures, the PRIME contractor
                     reports, the Business Systems         initiates the recommendation to
                     Modernization Office (BSMO)           close in the Information
                     should require the PRIME              Technology Asset Management
                     contractor1 to provide written        System, and the IRS is
                     procedures directing that the IRS     responsible for the final closure.
                     approve defect report resolution      Those procedures are currently
                     actions prior to defect report        under review. Approval and
                     closure.                              distribution of the procedures is
                                                           planned for November 30, 2002.

                     2. The Pilot Plan Needs to Include    The PRIME contractor has             Closed
                     Adequate Defect Reporting             drafted procedures that document
                     Procedures.                           the process the IRS will use when
                                                           interfacing defect reporting
                     To ensure that the defect reporting   information between the
                     databases provide reliable            ClearQuest® database and the

1
    See Appendix X for a glossary of terms.
                                                                                               Page 28
              Customer Account Data Engine Project Management Practices
                   Have Improved, but Continued Attention Is Needed
                              to Ensure Future Success



Report        Finding and Recommendation             Corrective Action                       Status
Number
and Date
              information for the pilot defect       Information Technology Asset
              reports, the BSMO should require       Management System defect
              the PRIME contractor to provide        tracking tools. These procedures
              detailed procedures for reconciling    contain specific information on
              defect reports in the ClearQuest®      the reconciliation of these reports.
              database and the Information           The procedures are currently
              Technology Asset Management            under review and are scheduled to
              System.                                be approved and distributed by
                                                     November 30, 2002.

2003-20-089   1. File and Job Names Need to Be       The BSMO is developing naming           Closed
              Compatible With Current Tax            standards. Key naming standards
March 2003    Processing Systems.                    will be published and available
                                                     for use by the current processing
              The Deputy Commissioner for            and modernization environments
              Modernization and Chief                by August 1, 2003.
              Information Officer needs to ensure
              that development of job and file
              naming standards is expeditiously
              completed by the IRS Enterprise
              Operations Services organization.
              The BSMO needs to work with the
              PRIME contractor to ensure that
              these naming standards are used in
              the development of future CADE
              releases and all other IRS
              modernization projects.

              2. The Balancing, Control, and         The BSMO will continue to               Closed
              Reconciliation Process Needs to Be     monitor the actions taken in
              Completed and Tested Prior to          balancing, control, and
              Release 1.                             reconciliation in preparation for
                                                     CADE Release 1 deployment.
              The BSMO should monitor the
              completion of the remaining work
              contained in the detailed schedule
              to assess the progress in completing

                                                                                            Page 29
           Customer Account Data Engine Project Management Practices
                Have Improved, but Continued Attention Is Needed
                           to Ensure Future Success



Report     Finding and Recommendation            Corrective Action                     Status
Number
and Date
           the balancing, control, and
           reconciliation process development.

           3. Improvements to the Computer       The BSMO will work with the           Closed
           Handbook Will Help to Ensure an       PRIME contractor to incorporate
           Effective Release 1 Deployment.       minimum documentation
                                                 standards and the Documentation
           The BSMO should work with the         Task Force’s findings into the
           PRIME contractor to incorporate       CADE.
           minimum documentation standards
           and the Documentation Task
           Force’s findings into CADE
           Release 1 and future releases.

           4. Improvements to the Computer      The BSMO is working with the           Closed
           Handbook Will Help to Ensure an      PRIME contractor and
           Effective Release 1 Deployment.      Information Technology Service
                                                organization as a task group to
           The BSMO should work with the        define standard deliverables that
           PRIME contractor to incorporate      will facilitate improved transition
           these documentation standards into of modernization systems into the
           the Enterprise Life Cycle.           current processing environment.
           Incorporating standards into the     The computer operations
           Enterprise Life Cycle will provide   handbook subtask group is
           guidance in developing               working to define gaps and
           documentation for current and        requirements for standard
           future CADE releases, as well as all deliverables needed by the
           other IRS modernization projects.    Information Technology Service
                                                organization for operations and
                                                maintenance support.

           5. The Balancing, Control, and        The BSMO will continue to work Closed
           Reconciliation Process Needs to Be    with the PRIME contractor to
           Completed and Tested Prior to         ensure that the remaining work
           Release 1.                            for the balancing, control, and
                                                 reconciliation process for
           The BSMO should require the           Release 1 is tested and completed.
           PRIME contractor to complete the
                                                                                      Page 30
              Customer Account Data Engine Project Management Practices
                   Have Improved, but Continued Attention Is Needed
                              to Ensure Future Success



Report        Finding and Recommendation            Corrective Action                  Status
Number
and Date
              remaining work on the balancing,
              control, and reconciliation process
              and fully test these processes to
              ensure that they meet the design
              requirements.

2005-20-005   1. Significant Software Changes       The BSMO is planning                Closed
              Were Added to CADE Release 1.1.       semiannual releases of the CADE
November                                            in July and January of each year.
2004          The Chief Information Officer         The July delivery will involve
              should direct the BSMO to work        higher risk, more complex
              with the PRIME contractor to          functionality, and the January
              ensure that future project            delivery will include filing season
              development changes undergo           changes combined with additional
              appropriate performance testing,      changes as capacity permits.
              simulating high-volume processing,    Because the returns from earlier
              before deploying the system.          in the filing season will be
                                                    available for testing, the IRS can
                                                    conduct performance testing on
                                                    the July release using the highest
                                                    volume periods. The IRS will
                                                    determine whether to conduct
                                                    additional performance testing on
                                                    the January release based on the
                                                    likelihood of the changes
                                                    affecting performance.

              2. The CADE Program Does Not          Over the last year, the BSMO has Closed
              Have a Dedicated System               been actively searching for
              Architect.                            qualified engineering resources.
                                                    While the BSMO has had success
              The Chief Information Officer         in recruiting a few candidates
              should ensure that the BSMO           (some of whom are dedicated to
              makes the system architecture         the CADE), it is very difficult to
              resources being acquired available    attract qualified individuals to
              to the CADE program on a              work for the Federal Government.
              full-time basis.                      The BSMO’s recruiting efforts

                                                                                     Page 31
           Customer Account Data Engine Project Management Practices
                Have Improved, but Continued Attention Is Needed
                           to Ensure Future Success



Report     Finding and Recommendation              Corrective Action                      Status
Number
and Date
                                                   will continue. In the interim,
                                                   MITRE Corporation employees
                                                   and members from the Enterprise
                                                   Architecture team are providing
                                                   CADE engineering and
                                                   architecture support. The PRIME
                                                   contractor is continuing to
                                                   provide full-time architecture
                                                   support to the CADE project.

           3. Disaster Recovery Capabilities       Disaster recovery for the CADE         Closed
           Were Not Tested Prior to CADE           needs to be periodically tested.
           Release 1.1 Implementation.             However, it should be part of an
                                                   enterprise disaster recovery and
           To ensure the ability of the IRS to     testing strategy for mainframe
           restore the CADE after a disaster       computing operations and
           with the least disruption to the IRS    databases at the Enterprise
           mission, the Chief Information          Computing Center. The IRS
           Officer needs to ensure that disaster   generally deploys major
           recovery capabilities for future        functionality enhancements for
           releases of the CADE are fully          future CADE releases in July and
           tested prior to implementation.         deploys filing season changes and
                                                   smaller system enhancements as
                                                   part of CADE filing season
                                                   releases in January. The Systems
                                                   Integration Enterprise
                                                   Architecture Office will work
                                                   with the Enterprise Operations
                                                   Service organization and the
                                                   Enterprise Computing Center to
                                                   ensure that CADE disaster
                                                   recovery testing is included in the
                                                   annual disaster recovery testing
                                                   performed each fall. Because
                                                   most new functionality will be
                                                   deployed in the July release, the
                                                   fall testing would be timely prior

                                                                                         Page 32
           Customer Account Data Engine Project Management Practices
                Have Improved, but Continued Attention Is Needed
                           to Ensure Future Success



Report     Finding and Recommendation            Corrective Action                     Status
Number
and Date
                                                 to the start of the new filing
                                                 season when the IRS will be
                                                 encountering high volumes.

           4. Improvements to the CADE            The BSMO made the required           Closed
           Operator’s Guide Need to Be            changes to the operational
           Completed.                             documentation for CADE
                                                  Release 1.1. However, the final
           The Chief Information Officer          copy with “no markup” was not
           should direct the BSMO to ensure       available for a few weeks
           that pilot and production              following initial operation.
           operational documentation for          Going forward, the BSMO plans
           future CADE releases is reviewed,      to have full documentation
           tested, and approved before both       available at implementation.
           the pilot test and live production are There are no plans for additional
           allowed to proceed. This review        CADE pilots.
           should also ensure that the
           corrective action to our March 2003
           report is incorporated in this review
           and that the IRS’ minimum
           documentation standards are
           completed and met in current and
           future CADE releases.

           5. Manual Processes Within CADE Changes will be included in the             Closed
           Release 1.1 Need to Be Automated January 2005 and July 2005
           for Future Releases.              deliveries addressing the
                                             specified operational
           The Chief Information Officer     inefficiencies.
           should direct the BSMO to ensure
           that inefficient manual processes
           are automated in future CADE
           releases.

           6. Disaster Recovery Capabilities     The Director, Enterprise              Closed
           Were Not Tested Prior to CADE         Computing Center, will test the
           Release 1.1 Implementation.           recovery and restoration of key
                                                 components of CADE processing
                                                                                      Page 33
                  Customer Account Data Engine Project Management Practices
                       Have Improved, but Continued Attention Is Needed
                                  to Ensure Future Success



Report           Finding and Recommendation                 Corrective Action                        Status
Number
and Date
                                                            to ensure a high confidence level
                 To ensure that the IRS can restore
                 the CADE after a disaster with the         in the IRS’ ability to recover the
                                                            CADE in the event of a disaster.
                 least disruption to the IRS mission,
                                                            The CADE was part of the annual
                 the Chief Information Officer needs
                                                            Enterprise Computing Center
                 to ensure that all aspects of the
                 CADE disaster recovery                     Master File Disaster Recovery
                                                            test. The test was conducted.
                 capabilities are tested during the
                 Annual IRS Disaster Recovery
                 Test.

2006-20-076      1. The PRIME Contractor’s                  Prior to Federal Government              Closed
                 Inadequate Testing Resulted in             testing, the PRIME contractor
June 2006        Reduced Capabilities for CADE              will be required to provide the
                 Release 1.3.                               IRS with notification regarding
                                                            the completion of unit testing.
                 The IRS and the PRIME contractor           The CADE project team has
                 agreed to defer eight Release 1.3.2        placed this requirement of formal
                 requirements to help ensure that the       notification regarding the
                 CADE would process tax returns in          completion of unit testing in the
                 time for the 2006 Filing Season.           CADE Release 2 task order and
                 This occurred because the PRIME            will continue to do so in future
                 contractor did not effectively and         task orders.
                 efficiently use computer language
                 (coding practices). Also, the              This corrective action will be
                 PRIME contractor’s unit testing did        incorporated into the ongoing
                 not adequately identify                    Test Process Improvement
                 programming defects.                       Project, which addresses
                                                            corrective actions from a prior
                                                            Treasury Inspector General for
                                                            Tax Administration audit report.2
                                                            The Test Process Improvement
                                                            Working Group of Stakeholders
                                                            will review existing test guidance
                                                            and make the appropriate

2
 System Requirements Were Not Adequately Managed During the Testing of the Custodial Accounting Project
(Reference Number 2007-20-019, dated December 2004).
                                                                                                   Page 34
           Customer Account Data Engine Project Management Practices
                Have Improved, but Continued Attention Is Needed
                           to Ensure Future Success



Report     Finding and Recommendation             Corrective Action                    Status
Number
and Date
                                                  modification to ensure that unit
                                                  testing was adequately performed
                                                  by the PRIME contractor and that
                                                  the application being provided to
                                                  the IRS is ready for integration
                                                  and testing. The
                                                  recommendations of the Working
                                                  Group will be vetted through the
                                                  formal IRS document review
                                                  processes, and revised guidance
                                                  will be posted to the Process
                                                  Asset Library after executive
                                                  approval.

           2. Successful Development of the   The Modernization and            Closed
           CADE Is Dependent Upon Its         Information Technology Services
                                              organization will review the
           Ability to Serve As an Efficient and
           Effective Foundation for           deliverables of the CADE Data
           Modernized Systems and             Study to serve as the basis for
           Applications.                      developing data models that will
                                              guide the logical and physical
           The CADE’s design for managing     designs for CADE Releases 3
           taxpayer accounts is not fully     and 4. The Modernization and
           developed to provide a foundation  Information Technology Services
           for the IRS’ current and planned   organization will review
           modernized systems. In             Modernization and Vision project
           April 2005, the BSMO initiated the strategies for extracting
           CADE Data Architecture and         operational and analytical data
           Analysis Study to enable the CADE and develop a high-level data
           project team to adapt a flexible   strategy for data warehousing.
           release strategy by establishing a Building upon the CADE data
           long-term plan to organize and     models and the high-level data
           manage CADE project data. Also, warehousing strategy, the
           the Modernization and Information Modernization and Information
           Technology Services organization   Technology Services organization
           is forming the Modernization       will develop a data access
           Vision and Strategy to establish   strategy and transition plan.

                                                                                      Page 35
           Customer Account Data Engine Project Management Practices
                Have Improved, but Continued Attention Is Needed
                           to Ensure Future Success



Report     Finding and Recommendation            Corrective Action                      Status
Number
and Date
           project development priorities with
           the IRS business operations. The
           Modernization and Information
           Technology Services organization’s
           Modernization Vision and Strategy
           will provide a 5-year plan for
           developing modernization projects
           and processes. Until these efforts
           are completed, successful
           deployment of a long-term CADE
           release strategy cannot move
           forward, and the future releases
           might not be deployed when
           planned.

           3. Controls to Manage CADE            As an interim measure, a project       Closed
           Requirements Do Not Allow Ready       repository has been developed
           Access for Project Team Use.          within the CADE to track and
                                                 control requirements for each
           Adequate procedures were not in       release. This vehicle will remain
           place to ensure that all CADE         in place until implementation of
           release requirements are controlled   the planned Enterprise Services
           in a timely manner. As of             organization repository.
           February 23, 2006, an interim
           process to control CADE Release 2
           requirements was in development.
           The BSMO will use this process
           until a vendor able to develop a
           repository meeting the IRS needs is
           identified.

           4. Defining CADE Project Release      The projects will continue to          Closed
           Requirements Will Help Enable the     work with the IRS Procurement
           Use of Fixed-Price Contracts.         office to ensure that the task
                                                 orders awarded are segregated to
           The BSMO implemented                  include Milestones 2, 3, and 4A
           contracting guidance on               as well as separate task orders for

                                                                                       Page 36
           Customer Account Data Engine Project Management Practices
                Have Improved, but Continued Attention Is Needed
                           to Ensure Future Success



Report     Finding and Recommendation            Corrective Action                      Status
Number
and Date
           April 30, 2004, entitled “Enabling    Milestone 4B. This separation of
           Fixed-Price Contracting for           the 4B task order gives the IRS
           Business Systems Modernization        the ability to award firm
           Task Orders,” which requires          fixed-price contracts in
           contracts and task orders for BSMO    accordance with the firm
           acquisition projects to be            fixed-price contract guidance
           fixed-price at the appropriate life   established on April 30, 2004.
           cycle development phase, unless       This leads to more cost-effective
           the Federal Government’s interest     acquisitions, better value, and
           is best served by other contract      greater competition. The
           types. The IRS is not using           Acquisition Development
           fixed-price contracts for CADE        organization will continue to
           Release 1.3 development activities    work with the Enterprise Services
           or for Release 2 design work          organization to establish
           performed by the PRIME                requirements earlier in the life
           contractor. The IRS recognized        cycle using the interim suite of
           challenges in working with the        policies and procedures that
           PRIME contractor to use               address the core disciplines of
           fixed-price contracts. The benefits   requirements development and
           of fixed-price contracting will be    management. This
           realized only when the CADE           documentation is available to all
           project requirements are fully        projects through the Business
           developed and agreed to, when         Rules and Requirements
           comprehensive estimates of effort     Management Division web site.
           to perform the contract tasks are     The CADE, in conjunction with
           made, and when meaningful             the IRS Contracting Officers,
           negotiations are held.                reevaluated the benefits of using a
                                                 fixed-price contract for the
                                                 remaining work on Release 2.
                                                 The risk profile that was
                                                 presented by the PRIME
                                                 contractor was much higher than
                                                 the risk that the Federal
                                                 Government was ready to
                                                 assume. After full review,
                                                 negotiations, and consideration,
                                                 the IRS made a business decision
                                                                                       Page 37
              Customer Account Data Engine Project Management Practices
                   Have Improved, but Continued Attention Is Needed
                              to Ensure Future Success



Report        Finding and Recommendation             Corrective Action                    Status
Number
and Date
                                                     to continue with the
                                                     cost-plus-award-fee contract. The
                                                     primary drivers were maintaining
                                                     the current task order end dates
                                                     and dollar values.

2008-20-080   1. Plans for Deploying CADE            The IRS has implemented a           Closed
              Releases Have Not Been Achieved.       formal Business Systems
July 2007                                            Requirements Report document
              The Chief Information Officer          using IRS processes in the
              should 1) ensure that the IRS          Business Rules and Requirements
              negotiates a reasonable scope of       Management Division to address
              work, 2) ensure that the amount of     scope concerns. CADE release
              staffing is adequate to accomplish     managers review and analyze
              the scope of projected work,           contractor-provided resource lists
              3) ensure that the CADE project        to ensure that adequate support is
              follows Enterprise Life Cycle          provided for each release. The
              guidance for performing Customer       IRS agreed to follow Enterprise
              Technical Reviews and Life Cycle       Life Cycle guidance for required
              Stage Reviews after completion of      reviews after completion of the
              the Design Phase for each release      Design Phase for each major
              and major release segment, and         release segment and to not allow
              4) not allow the PRIME contractor      the PRIME contractor to exit the
              to exit the Preliminary Design         Preliminary Design Phase without
              Phase without identifying all of the   identifying all of the work related
              related release work.                  to the release requirement.




                                                                                         Page 38
           Customer Account Data Engine Project Management Practices
                Have Improved, but Continued Attention Is Needed
                           to Ensure Future Success



Report     Finding and Recommendation           Corrective Action                     Status
Number
and Date

           2. The Approach Taken to             The IRS initiated tasks to develop    Closed
           Implement the Architectural Design   the historical data store and the
           Will Not Support CADE Project        requirements that are captured in
           Long-Term Goals and Objectives.      the CADE Independent
                                                Requirements Project. The IRS
           The Chief Information Officer        has also undertaken efforts to
           should limit future CADE delivery determine what improvements
           to essential capabilities and filing can be made to daily processing.
           season updates. Further, the Chief   As part of re-scoping Releases 3,
           Information Officer should consider many new capabilities were
           postponing new capabilities until    deferred to ensure that the
           key business decisions are made      above-noted infrastructure
           and the following requirements are improvements and previously
           implemented: historical data are     deferred requirements were
           stored, requirements identified by   incorporated. However, some
           the CADE Independent                 new capabilities have been
           Requirements Project are developed included in Release 3.2. The IRS
           and implemented, and daily           will continue to carefully plan
           processing routines are improved.    and approve increments of new
                                                functionality to include in future
                                                CADE releases.




                                                                                     Page 39
                   Customer Account Data Engine Project Management Practices
                        Have Improved, but Continued Attention Is Needed
                                   to Ensure Future Success



 Report            Finding and Recommendation                 Corrective Action                          Status
 Number
 and Date

                   3. Implementing Current                    The Chief Information Officer              Open
                   Technology to Support the CADE’s           will continue to work with the
                   Ultimate Computer Processing               Submission Processing
                   Demands May Be Cost Prohibitive.           organization to identify
                                                              alternatives for processing tax
                   The Chief Information Officer              returns on high-volume days, and
                   should partner with the Wage and           the Wage and Investment
                   Investment Division Business               Division Business Modernization
                   Modernization Office to jointly            Office will continue to work with
                   review alternative design solutions        the Enterprise Computing Center
                   and identify process improvements          to implement Saturday tax return
                   for the CADE. Alternative design           processing during the filing
                   solutions need to be explored to           season. The IRS will also
                   ensure that the CADE can operate           continue to explore alternative
                   as efficiently and effectively as          solutions for successful
                   possible.                                  implementation. In support of
                                                              this issue, a joint technical
                                                              assessment team is being formed
                                                              to identify CADE technical
                                                              constraints and improvement
                                                              opportunities with regard to the
                                                              architecture, performance, and
                                                              software quality.
Source: Treasury Inspector General for Tax Administration audit reports and IRS management responses.
   2003-20-018 - Improvements in the Customer Account Data Engine Pilot Plan Need to Be Considered
   to Help Ensure the Pilot’s Success (Reference Number 2003-20-018, dated November 2002).
   2003-20-089 - Adhering to Established Development Guidelines Will Help to Ensure the Customer
   Account Data Engine Meets Expectations (Reference Number 2003-20-089, dated March 2003).
   2005-20-005 - To Ensure the Customer Account Data Engine’s Success, Prescribed Management
   Practices Need to Be Followed (Reference Number 2005-20-005, dated November 2004).
   2006-20-076 - Focusing Management Efforts on Long-Term Project Needs Will Help Development of
   the Customer Account Data Engine Project (Reference Number 2006-20-076, dated June 2006).
   2008-20-080 - Vital Decisions Must Be Made to Ensure Successful Implementation of Customer
   Account Data Engine Capabilities (Reference Number 2007-20-080, dated July 13, 2007).


                                                                                                        Page 40
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



                                                                                   Appendix X

                                 Glossary of Terms

Term                              Definition
Account Management Services       A project that provides an integrated approach to view, access,
                                  update, and manage taxpayer accounts.
Best Practice                     A technique or methodology that, through experience and
                                  research, has proven to reliably lead to a desired result.
Business Rule                     A statement that defines or constrains some aspect of the
                                  business.
Business Rules and                Provides the IRS with a quality requirements baseline that
Requirements Management           reflects the needs of the business and its customers and results
Division                          in the development of solutions that meet those needs.
Business Systems                  The primary reference for all project requirements needed to
Requirements Report               complete design and development of the business solution.
CADE Independent                  A project with the objective of completing requirements the
Requirements Project              PRIME contractor was unable to deliver in prior CADE
                                  releases.
Centralized Authorization File    Contains information about the types of authorizations
                                  taxpayers have given their representatives for their tax returns.
Clean Dependent                   A dependent with the following characteristics for acceptance
                                  in CADE tax return processing: the dependent was claimed
                                  on the Calendar Year 2005 tax return submitted by the
                                  taxpayer and was also claimed on the taxpayer’s Calendar
                                  Years 2004 and 2003 tax returns. The dependent must have a
                                  valid Taxpayer Identification Number.
ClearQuest®                       A defect and change tracking system that captures and
                                  manages all types of change requests throughout the
                                  development life cycle, helping organizations quickly deliver
                                  higher quality software.
Corporate Notices                 A project that enables the CADE to support and manage
Release 1.2B                      taxpayer accounts that require generation of notices.


                                                                                           Page 41
                Customer Account Data Engine Project Management Practices
                     Have Improved, but Continued Attention Is Needed
                                to Ensure Future Success



Term                           Definition
Correspondence Production      Generates and mails taxpayer notices.
Services
Credit Elect                   A taxpayer request to the IRS to change a credit to a refund.
Cycle                          A 7-day processing period (usually from Sunday to Saturday)
                               measurement used by the IRS.
Desktop Integration            Provides integrated access to multiple systems using only
                               1 computer terminal and supports more than 30,000 end users.
Enterprise Architecture        A commercial off-the-shelf solution that enables data
Integration Broker             communication and transformation among systems and
                               applications.
Enterprise Computing Center    Supports tax processing and information management through
                               a data processing and telecommunications infrastructure.
Enterprise Data Strategy       A strategy to develop integrated data solutions and retire
                               duplicate systems while maintaining the business
                               functionality.
Enterprise Life Cycle          A structured business systems development method that
                               requires the preparation of specific work products during
                               different phases of the development process.
Executive Steering Committee   Oversees investments, including validating major investment
                               business requirements and ensuring that enabling technologies
                               are defined, developed, and implemented.
Filing Season                  The period from January through mid-April when most
                               individual income tax returns are filed.
Firm Fixed-Price Contract      Sets a price that is not subject to any adjustment because of
                               cost overruns incurred by the contractor.
Forms 1040, 1040EZ, and        The series of IRS forms that include individual income tax
1040A                          returns.
Individual Master File         The IRS database that maintains transactions or records of
                               individual tax accounts.
Individual Master File to      Will convert all Individual Master File data into a Database 2
Database 2 Initiative          format similar to that used by the CADE.



                                                                                       Page 42
                 Customer Account Data Engine Project Management Practices
                      Have Improved, but Continued Attention Is Needed
                                 to Ensure Future Success



Term                           Definition
Information Technology Asset   Delivers an inventory system that enables tracking, reporting,
Management System              and management of information technology assets.
Information Technology         Establishes a 5-year plan that drives investment decisions;
Modernization Vision and       addresses the priorities around modernizing front-line tax
Strategy                       administration and supporting technical capabilities; and
                               leverages existing systems (where possible) and new
                               development (where necessary) to optimize capacity, manage
                               program costs, and deliver business value on a more
                               incremental and frequent basis.
Infrastructure                 The fundamental structure of a system or organization. The
                               basic, fundamental architecture of any system (electronic,
                               mechanical, social, political, etc.) determines how it functions
                               and how flexible it is to meet future requirements.
Item Tracking Report and       An information system used to track and report on issues,
Control System                 risks, and action items in the modernization effort.
Level of Effort Contract       A contract form that describes the scope of work in general
                               terms and requires the contractor to provide a specified level
                               of effort (number of hours or percentage of effort) over a
                               stated period of time.
Logical Data Model             A foundation for designing a database that supports the
                               business requirements. It also facilitates data re-use and
                               sharing and provides documentation of the information
                               requirements of the business area for ongoing impact analysis.
                               Each business process is tied to the logical data model to
                               assure that all data and process model components have been
                               discovered.
Logical Design                 Describes the functions required of a system; that is, what is to
                               be done, not how it will be done. Logical design is concerned
                               with the processes to be performed.
Master File                    The IRS database that stores various types of taxpayer account
                               information. This database includes individual, business, and
                               employee plans and exempt organizations data.
Milestone                      Provides for a “go/no-go” decision point in a project and is
                               sometimes associated with funding approval to proceed.


                                                                                        Page 43
                  Customer Account Data Engine Project Management Practices
                       Have Improved, but Continued Attention Is Needed
                                  to Ensure Future Success



Term                          Definition
MITRE Corporation             Hired by the IRS as a Federally Funded Research and
                              Development Center to assist with the IRS systems
                              modernization effort.

Notice                        A computer-generated message resulting from an analysis of
                              the taxpayer’s account on the Master File.
Notice Review Processing      Matches notices with Individual Master File unpostable and
System                        re-sequencing transactions.

Notice Services Program       Has capabilities to support notice issuance directly from the
                              CADE database to enhance notice processing, notice
                              management, and taxpayer services.

Physical Design               Describes how the processing will be performed; for example,
                              whether data are input by a person or read by a bar code
                              reader or whether a file is electronic or print. Tools to
                              represent the physical design include system flowcharts and
                              structure charts.

PRIME Contractor              The Computer Sciences Corporation, which heads an alliance
                              of leading technology companies brought together to assist
                              with the IRS’ efforts to modernize its computer systems and
                              related information technology.

Process Asset Library         A web-based repository that contains process content for the
                              IRS. The contents include policies, directions, procedures,
                              templates, and standards used by the IRS to define,
                              implement, and manage business change for the IRS Business
                              Systems Modernization Program.

Release                       A specific edition of software.
Task Order                    An order for services planned against an established contract.
Unit Testing                  Ensures that program modules perform in accordance with
                              requirements.
Vision and Strategy           The phase that translates the fundamental business strategy
                              into a transformation strategy for business processes,
                              information technology, and organizational change.

                                                                                      Page 44
              Customer Account Data Engine Project Management Practices
                   Have Improved, but Continued Attention Is Needed
                              to Ensure Future Success



Term                           Definition
Wage and Investment Division   Includes, but is not limited to, the Business Modernization
Business Owners                Director for the CADE, the Business Leader for the CADE,
                               and the Business Requirements Director for the CADE.




                                                                                     Page 45
    Customer Account Data Engine Project Management Practices
         Have Improved, but Continued Attention Is Needed
                    to Ensure Future Success



                                                  Appendix XI

Management’s Response to the Draft Report




                                                        Page 46
Customer Account Data Engine Project Management Practices
     Have Improved, but Continued Attention Is Needed
                to Ensure Future Success




                                                    Page 47
Customer Account Data Engine Project Management Practices
     Have Improved, but Continued Attention Is Needed
                to Ensure Future Success




                                                    Page 48
